                                             UNCLASSIFIED

      This report has been reviewed pursuant to the Freedom of Information Act (5 U.S.C. Section 552) for public release.



       Office of International Broadcasting Oversight


                                 Survey of the Merger of
                           Worldnet Television with the
                                         Voice of America


          Memorandum Report Number IBO-A-03-04
                                             February 2003


The Broadcasting Board of Governors’ (BBG) increasing use of television and
Internet and changing foreign policy priorities require greater efficiencies in broad-
casting. To obtain such efficiencies the BBG notified Congress in February 2000
of its decision to merge the Worldnet Television and Film Service (WORLDNET)
with the Voice of America (VOA). In November 2001, the VOA director pro-
posed that the merger become part of a complete reorganization of VOA to trans-
form it into a multimedia broadcaster.1 A number of plans have been developed
and some ad hoc integration has taken place, but the merger is still not complete.
In September of 2002, a new VOA director was appointed, and will finalize the
plan.

     The Office of Inspector General (OIG) for the Department of State and BBG
initiated a review of the merger of WORLDNET with VOA in August 2002. The
objectives of this review were to determine: (1) the status of the merger; (2) the
resource implications of the merger; and (3) how VOA-TV and WORLDNET
programs have been integrated.

    The review was conducted from August to September 2002. OIG conducted
nearly 80 meetings with over 100 participants and analyzed relevant documents.
Major contributors to this report were Louis A. McCall, Assistant Inspector General
for International Broadcasting Oversight, acting; Katherine M. Schultz, audit
manager; James M. Berry-Schneck, senior auditor; and Matthew E. Glockner,
management analyst.

1
    Appendix A shows a chronology of significant events related to VOA and the merger of
    WORLDNET.

OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003           1 .

                                             UNCLASSIFIED
                                           UNCLASSIFIED



          To allow the agency time to reorganize under a new director, a new board
      chairman and other new board members, OIG will make one recommendation at
      this time. OIG will monitor follow up action by VOA and BBG until the merger is
      complete.


            Recommendation 1: The Director of the Voice of America, through the
            Broadcasting Board of Governors, should provide the Office of Inspector
            General with quarterly status reports on the merger of WORLDNET with
            Voice of America, beginning January 1, 2003, and ending with the completion
            of the merger. (Action: VOA)


          BBG concurred with the recommendation and agreed to report on the status of
      the merger quarterly.2 On January 10, 2003, VOA Director David S. Jackson
      submitted the status report for the first quarter of FY 2003. OIG commends BBG
      on its responsiveness and considers the recommendation to be resolved open,
      pending completion of the merger and submission of a final status report.



      MATTERS FOR CONSIDERATION
      The following analysis outlines matters for consideration that may assist VOA in
      finalizing the merger.

      Status of the Merger

      The merger was intended to create a multimedia broadcasting entity.3 Each lan-
      guage service in VOA would be empowered to select the kind of media that will
      reach the greatest audience available to that service. VOA’s action was an answer
      to BBG’s strategic planning guidance to “rethink where we broadcast, how we
      broadcast, and how we are organized internally to support our broadcasting.”4
      Various plans were reviewed during the OIG survey, and a new plan is being
      developed with the approval of the Board of Governors.

      2
          BBG’s comments on the OIG draft report are included in their entirety in Appendix C of this report.
      3
       BBG initially proposed a merger of WORLDNET Television with VOA in a letter to Congress dated
      February 2, 2000; the proposal was revised in a letter to Congress dated March 20, 2001. In the Statement
      of Managers accompanying Public Law 106-553, Congress understood that VOA would realign its orga-
      nizational structure to incorporate television and realize efficiencies and savings.
      4
        BBG’s strategic planning guidance is “to marry the mission to the market,” and reorganization is a re-
      sponse to that guidance.

2 .              OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003


                                           UNCLASSIFIED
                                             UNCLASSIFIED



Issues Affecting the Merger Outcome

     Meeting the Vision

The challenge for VOA managers is to broadcast to the greatest audience possible
in a medium suited to that audience using current resources. However, OIG
observed that managers in language services and central programming for VOA did
not believe they were empowered to make resource decisions to meet the multime-
dia vision. Merging WORLDNET with VOA does not increase resources for VOA
television and Internet. Management’s commitment that no employee will lose a
position or grade because of the merger restricts the reallocation of resources
necessary to implement the vision.

    The Committee letter5 explicitly states, “the Committee expects the BBG to
undertake a top-to-bottom review of television-related activities.…” However, to
date, no merger has taken place between WORLDNET Television and VOA, nor is
there any evidence that any “top-down” evaluation of television has taken place.
     Matter for Consideration: VOA needs to evaluate the role of television
     throughout the organization to determine whether resources are appropri-
     ately allocated to meet the priorities of the BBG. The Director needs to
     ensure that language services understand their responsibility to make deci-
     sions on which medium will reach the greatest audience, given present re-
     source allocations.

     Role of the International Broadcasting Bureau

VOA must use the administrative support services provided by the International
Broadcasting Bureau (IBB) to accomplish any merger. IBB support services, such
as human resources and finance, can review any plan developed by VOA and
decide whether to approve or delay the merger. So, VOA has the responsibility to
develop and implement the merger, but only after IBB gives it the authority to
initiate action.
     Matter for Consideration: IBB support offices need to provide, on a
     timely basis, all requested data to VOA to assist in planning a merger that is
     feasible and meets the human resource and financial requirements of the
     United States government.


5
 Letter from Congressman Frank Wolf, Chairman, Subcommittee on Commerce, Justice, State, the
Judiciary and Related Agencies, Committee on Appropriations, House of Representatives, dated
May 21, 2001.

OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003   3 .

                                             UNCLASSIFIED
                                        UNCLASSIFIED



          Communications

      OIG found in interviews with staff at VOA, WORLDNET TV, IBB, and BBG that
      there had been limited or no communication on merger plans to mid-level or on-
      line staff. In addition, not all key managers had been asked to contribute to the
      process.
          Matter for Consideration: For the merger to work, VOA management
          needs its staff not only to understand the plan, but also to be a part of it.
          VOA needs to develop a program to communicate the plan and its implica-
          tions to all divisions and solicit and incorporate their comments.

          Unions

      Two unions represent VOA employees. One union represents radio technicians,
      and the other represents broadcasting personnel, including television technicians.
      Each union has its own contract, bargaining regulations, and professional require-
      ments. In its March 20, 2001, letter, BBG stated that discussions had been initi-
      ated with the unions on the implications of the merger.6 However, as of August
      2002, there was no evidence that the unions had been consulted on specific,
      proposed merger plans. Because there are long-term issues that may change work
      requirements, supervisors, and organizational units, management needs to coordi-
      nate with union representatives to reduce grievances and possible lawsuits.

          Another union issue discussed in merger plans is that radio and TV technicians
      would be cross-trained to share each other’s duties. However, current bargaining
      unit arrangements will not allow radio and TV technicians to share jobs, and not all
      technical skills are easily interchangeable.
          Matter for Consideration: The unions need to be consulted to minimize
          potential union grievances that could otherwise delay the implementation
          of any merger plan.

      Resource Implications

          Cost Savings

      At present, merger plans do not indicate immediate cost savings. Congress ap-
      proved the plan with the understanding that the reorganization of VOA and the
      merger of WORLDNET would result in efficiencies and cost savings. Savings

      6
       Letter to Subcommittee on Commerce, Justice, State, the Judiciary and Related Agencies, Committee on
      Appropriations, House of Representatives.

4 .           OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003


                                        UNCLASSIFIED
                                             UNCLASSIFIED



were originally envisioned based on the premise that correspondents and technical
personnel would be cross trained and multifunctional, and video-journalists would
provide television products for multimedia use. Adapting a TV story for the radio
or Internet, however, requires a significant amount of time, and correspondents
find it difficult to meet deadlines when stories are produced in dual formats. There
are also vacancies in most units, which makes cross training difficult. However,
as the merger evolves over time, there could be cost savings in production or
programming.
       Matter for Consideration: The merger plan needs to outline how staffs
       are to be reorganized to improve programming and meet the intent of Con-
       gress regarding efficiencies and savings.

       Personnel Issues

Video journalists have remained in a training status since the VOA-TV pilot project
began in 1998. Non-management employees who volunteered for the pilot project
have not been given either position descriptions or annual performance appraisals.
VOA and the IBB Human Resources Division have been working to resolve this
issue. In September 2002, position descriptions developed during the past year
resulted in the posting of job announcements.
       Matter for Consideration: All employees, managers, and non-managers
       who were detailed to the video journalist pilot project need to be assigned
       to a division within VOA with a position description that accurately states
       position duties and responsibilities.

Program Integration

The purpose of combining the merger with the reorganization of VOA was to
develop VOA into a multimedia organization able to broadcast via radio, TV, or
Internet, depending on which medium would reach the widest audience. The
merger itself will not affect the quantity or quality of VOA-TV. Without additional
resources, it is not clear how the merger will result in an increase in television
products.

  The merger has already partially taken place. OIG observed that
WORLDNET has become a production house providing technical support to all
VOA-TV products.7 VOA-TV projects have been created, are being broadcast, and

7
    Appendix B has a listing of current VOA television programs.




OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003   5 .

                                             UNCLASSIFIED
                                      UNCLASSIFIED



      in some cases, have attracted a significant audience. For example, the Indonesian
      and Azerbaijani television programs each have a strong viewing audience. By all
      accounts, the relationship between WORLDNET technical and production person-
      nel and the VOA language service and technical personnel is working well. Several
      simulcast programs are produced, such as VOA NewsReview and Conversemos En
      Esta Noche, that require both radio and TV technicians to work together to make a
      simulcast happen. There are WORLDNET employees that work full-time on
      specific VOA-TV products for language services. These employees should be
      assigned to and supervised by the respective language services.
         Matter for Consideration: VOA, working with the IBB Human Resources
         Division, needs to treat equitably all employees who are moved to other
         divisions as a result of the merger to the maximum extent possible.




6 .         OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003


                                      UNCLASSIFIED
                                             UNCLASSIFIED




OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003   7 .

                                             UNCLASSIFIED
                                UNCLASSIFIED




8 .   OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003


                                UNCLASSIFIED
                                             UNCLASSIFIED




OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003   9 .

                                             UNCLASSIFIED
                                 UNCLASSIFIED




10 .   OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003


                                 UNCLASSIFIED
                                             UNCLASSIFIED




OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003   11 .

                                             UNCLASSIFIED
                                 UNCLASSIFIED




12 .   OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003


                                 UNCLASSIFIED
                                             UNCLASSIFIED




OIG Report No. IBO-A-03-04, Survey of the Merger of Worldnet Television with the Voice of America – February 2003   13 .

                                             UNCLASSIFIED
